<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF JAMES W. ZIGLAR TO BE COMMISSIONER OF THE IMMIGRATION AND NATURALIZATION SERVICE</title>
<body><pre>[Senate Hearing 107-490]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-490

    CONFIRMATION HEARING ON THE NOMINATION OF JAMES W. ZIGLAR TO BE 
       COMMISSIONER OF THE IMMIGRATION AND NATURALIZATION SERVICE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2001

                               __________

                          Serial No. J-107-31

                               __________

         Printed for the use of the Committee on the Judiciary


80-132              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     7
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    12
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................    11
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    10
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     5
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........    69
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     8

                               PRESENTERS

Cochran, Hon. Thad, a U.S. Senator from the State of Mississippi.     4
Daschle, Hon. Tom, a U.S. Senator from the State of South Dakota.     3
Lott, Hon. Trent, a U.S. Senator from the State of Mississippi...     1

                        STATEMENT OF THE NOMINEE

Ziglar, James W., of Mississippi, Nominee to be Commissioner of 
  the Immigration and Naturalization Service.....................    13
    Questionnaire................................................    20

 
    CONFIRMATION HEARING ON THE NOMINATION OF JAMES W. ZIGLAR TO BE 
       COMMISSIONER OF THE IMMIGRATION AND NATURALIZATION SERVICE

                              ----------                              


                        WEDNESDAY, JULY 18, 2001

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:35 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, presiding.
    Present: Senators Kennedy, Leahy, Durbin, Hatch, Kyl, 
DeWine, and Brownback.
    Senator Kennedy. We will come to order. We are delighted to 
make some opening comments, which I will in just a moment. But 
we have some very special presenters here who have extremely 
important responsibilities in leadership in the Senate. I would 
say in the 39 years that I have been here, I have not seen the 
Majority and Minority Leaders appear with the strong, strong 
support of a very distinguished senior Senator as well, Thad 
Cochran, to get a nominee off to a good start. So we will 
listen carefully to the presentation here. But I think all of 
us on the Judiciary Committee and all the Members of the Senate 
have known what our three important leaders will comment on. We 
have a very unique and special nominee who has some very 
special skills and is willing to take on important 
responsibilities. But we will hear now from his friend, Senator 
Trent Lott. We are glad to have you here. Senator Cochran, 
welcome. Senator Daschle, I will say more about you in just a 
minute.
    If you would be good enough to proceed, we would be glad to 
hear your comments.

STATEMENT OF HON. TRENT LOTT, A U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Lott. Thank you very much, Senator Kennedy, for 
having an expeditious hearing, and I thank my senior colleague 
from Mississippi for allowing me to go ahead and get started.
    Senator Kennedy, I know over the years you have had a lot 
of friends in the Senate that some people would be surprised to 
find out about. We knew in Mississippi that you had a good 
relationship with a Senator named Jim Eastland. In fact, you 
came down to the university when I was a student there. I was 
one of the demonstrators, you will remember, outside there.
    [Laughter.]
    Senator Lott. But you came at the request of Senator 
Eastland, and so if you have ever been in the Sergeant-at-Arms 
office, you will notice there is a very large portrait there, 
but it is not of yours truly or Senator Cochran. It is of 
Senator Jim Eastland.
    So I had planned to support this nominee, but now realizing 
he actually has as much or more support on the Democratic side 
of the aisle as the Republican side, I am re-evaluating that. 
And I will take advantage of this opportunity to roast the 
nominee in the way that he truly deserves.
    No, let me just say, Senator Kennedy I am delighted to be 
here and join friends and family to support Jim Ziglar to be 
the head of INS, Immigration and Naturalization Service. I have 
no doubt that he will be outstanding in that position.
    Now, I must confess, when he first came to me and suggested 
he might be willing to do that or would want to do that, I 
questioned his sanity. And I said, ``You know, you have already 
taken on a couple of tough jobs in the past. Are you sure you 
want to do this?'' And he said, yes, he did, because he thought 
it was an important position, it could be a real challenge, and 
he would like to have the opportunity.
    So I am glad to be here, and I can vouch for his intellect, 
his ability, his education, his fortitude, all of these 
tremendous things to describe his background. But I also can 
attest to the fact that he has always been one to be willing to 
take on a difficult task. He was the newspaper boy in our 
neighborhood, and he was very aggressive. I don't think we ever 
had a newspaper person that knocked out more windows in his 
years in that position. And he attempted to sing in the First 
Baptist Church choir that I was singing in. So I know him very 
well from a long time ago.
    But out of in respect for his wife--his very charming wife 
is here--I won't reveal all that I know. But his father and my 
father worked in the shipyard--a couple of blue-collar guys. We 
grew up in the small town in Pascagoula, and I watched him grow 
and create a tremendous record in high school. And then he came 
to George Washington University, worked for Senator Eastland, 
went to law school, graduated from law school, was a clerk for 
Justice Blackmun, and there he began to get the kind of 
experience he can put to use in this Administration. By the 
way, he also worked for the Judiciary Committee on the 
Judiciary Committee staff. He has some background in dealing 
with the judicial and immigration issues which he will face at 
INS, having worked on Judiciary, having served as a clerk with 
Justice Blackmun.
    He got out in the private sector and did quite well as an 
attorney, worked in the Reagan years as Assistant Secretary of 
Interior in Water Resources, most of his work being in the 
western areas. And those are certainly not easy tasks to deal 
with. He did a marvelous job there managing people and getting 
results on these very important water projects out in the West.
    He was also very successful subsequently on Wall Street, 
and then a few years ago I called him and said we need a 
Sergeant at Arms with experience managing people, who can 
provide leadership, deal with security and make sure that the 
Sergeant at Arms of the Senate in a bipartisan way does the 
job--one that will be respected on both sides of the aisle. And 
so he took on that task, and he has just done an outstanding 
job.
    I believe, as you have said, on both sides of the aisle 
Senators admire and appreciate him and are thankful that he is 
willing to take on this important task.
    So I am delighted to be here and support Jim Ziglar for 
this position. I know he will do a good job. I know he will 
undertake the assignment with great vigor. I know he will stay 
in touch with the Congress as we try to help him make sure that 
we have rules and regulations that are understandable, that are 
sensible, and that will help the people.
    So I am delighted to be here. Thank you for having the 
hearing, and I really appreciate the fact that Senator Daschle 
also is here to support this nominee.
    Thank you.
    Senator Kennedy. Thank you, Senator Lott. We appreciate 
your mentioning how quickly we are going to have the hearing 
and how quickly we are going to get this out and how quickly we 
are going to consider him on the Senate floor. That is what 
Senator Daschle tries to do with all the nominees that we have 
here.
    [Laughter.]
    Senator Lott. We do have 120 others we would like to talk 
to you about.
    Senator Kennedy. We have been joined by Senator Leahy and 
Senator Hatch. We will look forward to hearing from our 
Majority Leader. We thank him very much. As I mentioned before, 
this is an extraordinary tribute to a nominee, and with the 
understanding of Senator Cochran, who we would recognize, if 
you will extend the courtesy, we would welcome the fact to hear 
from our friend and colleague, Senator Daschle.
    Tom, thank you for coming.

STATEMENT OF HON. TOM DASCHLE, A U.S. SENATOR FROM THE STATE OF 
                          SOUTH DAKOTA

    Senator Daschle. Mr. Chairman and distinguished members of 
the committee, thank you. I think that all that is left to be 
said is, ``Amen. Let's vote.''
    I think that Senator Lott has said it so well. No one in 
this room knows Jim Ziglar better than does Senator Lott, but I 
have come to know him quite well over the last several years 
and respect him immensely. The job of Sergeant at Arms is a 
difficult job, but Jim Ziglar has handled it admirably and 
handled it in a way that we would expect--in a bipartisan, very 
professional way.
    He has worked with and for Democrats and Republicans 
throughout his career. He has worked both in the private sector 
as well as in the public sector. He has had challenges dealing 
with management as well as challenges dealing with major 
decisions involving the fiscal needs of our country. And I 
think he has handled each and every one of them extremely well.
    So Senator Lott is right. This man is especially prepared 
and I think most able to take on these new responsibilities. So 
I only come before the committee to say a few words and I 
especially appreciate Senator Cochran's willingness to allow me 
to do so.
    I have a longer statement that I will submit for the 
record, but I am grateful to you, Mr. Chairman, for expediting 
this hearing, and I will say I think Democrats and Republicans 
can unanimously support this man. He warrants our support, and 
it is with enthusiasm that I support him this afternoon.
    [The prepared statement of Senator Daschle follows:]

 Statement of Hon. Tom Daschle a U.S. Senator from the State of South 
                                 Dakota

    From 1998 to 2001, James Ziglar served as the Senate's 
Sergeant at Arms. He came to the Senate after a long and 
distinguished career in law and business. After graduating from 
law school from George Washington University in 1972, he served 
as an aide to former Sen. James Eastland (D-Miss.). After that 
he did a brief stint at the Justice Department as special 
assistant for Legislative and Public Affairs, and served as law 
clerk for Justice Harry Blackmun on the U.S. Supreme Court. He 
then worked for two well respected law firms.
    In the 1980s, Jim began his career in the financial 
services industry, working for Dillon, Read & Co. and then 
Paine Webber. The financial and management skills he gained 
served this Senate well.
    Jim and his wife are active in their community, their 
church and various non-profit endeavors. Jim has served various 
natural resource organizations, including: the National Water 
Resources Association and the American Water Foundation, and a 
number of organizations that help the poor overseas, such as 
Mercy International Health Services. Locally, Jim and his wife, 
Linda, are active volunteers for Christmas in April. He has 
also been active in the Baptist and Presbyterian Churches.
    Jim has also been instrumental in developing a program that 
is near and dear to me and the people of my state: ``Dakota 
Heart,'' a partnership between hospitals in North and South 
Dakota and hospitals in Poland to provide training for 
cardiologists and cardiac surgeons in Poland.
    Jim's tenure here in the Senate has been one which will be 
remembered fondly by members on both sides of the aisle. He has 
assisted Democratic and Republican Senators with their many 
needs over the years--including the need for advice on 
clothing, and ties--and has always done so with efficiency, 
attention to detail, and good humor.
    For those of us who know Jim, we know that his passion for 
public service is matched only by his love for his pet pig, 
porkchop. If you ever discuss this animal with Jim, you realize 
that his affection is such that ``porkchop'' is its name--but 
will never be its destiny.
    So now it is my distinct pleasure to introduce a friend, 
colleague, and a dedicated public servant--a man whose 
distinguished service I have every expectation will continue as 
commissioner of the INS. . . Jim Ziglar.

    Senator Kennedy. Thank you very much to both of our 
Leaders. We know you have other responsibilities, so we thank 
you very much for taking time and making time. It is an 
extraordinary tribute to our nominee, and we are grateful to 
you. We will excuse you because we know you have to be on your 
way.
    We will hear now from a good friend, Senator Cochran. Thank 
you very much for joining us, and we look forward to your 
comments.

 STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM THE STATE 
                         OF MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to be invited to be here today at this hearing, and I 
am very proud to endorse the nomination of Jim Ziglar to be 
Commissioner of the Immigration and Naturalization Service.
    I have not known Jim as long or as well as my colleague, 
Senator Lott, but I know from those who have worked closely 
with Jim over the years and my own personal observations since 
I came to Washington in 1973 about his diligence, his 
competence, his integrity, his ability to get things done under 
tough circumstances. He came to the Senate at a time when we 
really needed somebody like Jim Ziglar in this job. I don't 
want to dredge up unpopular or unpleasant recollections, but 
the impeachment challenge that we were faced with in the early 
days of his tenure as Sergeant-at-Arms called on him to come up 
with a strategy and a plan, work closely with Democrats and 
Republicans, the leadership of the Senate, and across the 
Capitol with Bill Livingood over on the House side who was in 
charge of security.
    He did all this in a calm, thoughtful, serious way and 
reflected a great deal of credit, I think, on the institution 
of the United States Senate. So I was very pleased to see him 
discharge those responsibilities in a way that made Mississippi 
look good. We were very proud of him as a native of our State.
    Incidentally, you know, when Senator Eastland was chairman 
of the Judiciary Committee, his principal interest, as many of 
you know--and I know the chairman remembers--was the 
Immigration and Naturalization Service. And Jim Ziglar had the 
responsibility of being a member of that staff to work closely 
with the then-Commissioner of INS. So I am very comfortable 
with the notion that he is qualified for this job and by his 
experience and his ability and intelligence will do an 
excellent job in this capacity. So I recommend him without any 
qualifications except to say that we are very pleased with the 
dispatch that you have entertained the nomination and arranged 
this hearing. We appreciate the committee's attention to this 
nomination very much.
    Senator Kennedy. Thank you very much, Senator Cochran. 
Those are important observations, and I think all of us who 
remember that time understand very well what you were talking 
about, the very important contributions that Mr. Ziglar made to 
the decorum and to the workings and functionings of the Senate, 
a very valuable observation. We thank you very much.
    We have been joined by Senator DeWine and Senator Durbin. I 
see Senator Symms also is here present in the audience today. 
We are always glad to have him back in the Senate.
    I would ask our nominee, Jim, if you would be good enough 
to come forward. Before asking you to give a brief comment, I 
would like to make a brief opening statement. Then I would ask 
you if you would be good enough to introduce your wife who is 
here. We welcome Mrs. Ziglar as well.

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Senator Kennedy. It is a privilege to chair this hearing on 
the nomination of Jim Ziglar to be the next Commissioner of the 
INS. Mr. Ziglar has a distinguished record as a fair, 
effective, experienced manager, and he has demonstrated his 
ability to work well with Members of the Senate on both sides 
of the aisle.
    As the head of the INS, Mr. Ziglar will be instrumental in 
influencing immigration policy, including reform of the INS. 
Many of us feel that the time has long come to divide the 
agency into two separate bureaus, with clear chains of 
command--one for services and one for enforcement. These 
functions will need to be coordinated at the top by a strong 
Administrator responsible for the supervision and management of 
the entire agency and implementation of the Nation's 
immigration policy.
    We also feel that the service functions must be adequately 
funded. Sole reliance on application fees to fund the 
processing of all immigration applications has not worked, and 
as we know from the long backlogs and delays facing immigrants 
who apply for permanent residence or citizenship, help needs to 
be there.
    Clearly, additional funds are needed to reduce the massive 
backlogs, upgrade computer and telecommunications systems, and 
fund other improvements. Without these changes, the high fees, 
long backlogs, and unresponsive service will continue to plague 
the INS.
    We also need to deal with other important areas of 
immigration reform, such as enabling qualified persons to 
adjust their immigration status while in the United States 
without being required to leave the country or be separated 
from loved ones.
    I am very encouraged by the developments in the U.S.-Mexico 
migration discussions. As part of these negotiations, the issue 
of a temporary worker has been suggested. Clearly, it should 
include strong protections for both U.S. and foreign workers 
and appropriate legalization provisions for undocumented 
workers currently employed and residing in the United States.
    Finally, we must repeal the unfair provisions enacted by 
Congress in 1996 that continue to violate basic values such as 
family unity, individual liberty, and due process.
    So I look forward to today's hearing and to working closely 
with Mr. Ziglar and the administration to achieve these 
important goals. Immigration continues to be an indispensable 
part of our Nation's heritage and history, and we must do all 
we can to see that our laws are fair and consistent with the 
Nation's fundamental values.
    I want to just mention also at the outset, in looking over 
the qualifications for Mr. Ziglar, I have taken note that he 
has involvement in a personal way in voluntary services, 
particularly overseas, and at the end of his comments, I will 
have a chance, but I want to mention this because I found it 
very impressive and it made a very important impression on me.
    He has been involved in various organizations assisting the 
poor overseas, serving on the Board of Mercy International 
Health Services, which provides health care services in poor 
and developing countries. He has also been involved in the Dui 
Hua Foundation in its efforts to identify and bring attention 
to the plight of political prisoners in the People's Republic 
of China. He also has been involved in the Adobe Foundation 
that provides housing and education for orphans in Romania and 
assisting in developing a program of cooperation between 
hospitals in North and South Dakota and hospitals in Poland to 
provide training for cardiologists and cardiac surgeons.
    I had just a few moments to talk with him about these 
matters, and I hope later on after he gives his opening 
statement he might share some of these experiences. He has 
clearly demonstrated over his lifetime a strong commitment in 
terms of public service, and this is very impressive. And he 
has not only walked that walk, but he has demonstrated in his 
private life this continuing, ongoing concern for humanity. It 
is really enormously impressive. So we will look forward to his 
statement and to his appearance.
    Senator Brownback?

STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. If I could add a short opening 
statement, thank you, Mr. Chairman. Welcome, Mr. Ziglar. We are 
delighted to have you here.
    I think what people are going to find, as they see you take 
over in the Commissioner's position, is a man with a great head 
and a great heart both. And that is a wonderful combination. 
You are seeing that in the actions that people are talking 
about that you have done in your past, and I think they can 
look forward to that in the future.
    I am delighted to have you here, delighted for a man of 
your background and your expertise to be taking over this 
position. I will be strongly supporting your nomination for the 
Commissioner of the Immigration and Naturalization Service.
    I want to bring to your attention a couple of items. I have 
had the opportunity to visit with Mr. Ziglar several times 
already about his work or hopefully upcoming work, should he be 
approved by the Senate, which I have no doubt will take place, 
in some keys areas that we both share common interest and 
concern about.
    First, in the area of humans rights areas, INS faces many 
responsibilities as the U.S. Government entity that often comes 
in the closest contact with victims of persecution. On May 3rd, 
this subcommittee held a hearing on asylum policy, and we heard 
testimony that genuine refugees from time to time may be 
mistakenly deported by INS inspectors, that some asylum seekers 
are treated improperly during the airport inspections, and that 
many asylum seekers are detained in penal-like conditions well 
beyond the time needed to determine their identity and 
establish whether they have a credible fear of persecution 
should they return to their homeland. A number of former asylum 
seekers gave moving testimony at that hearing, and I am 
confident that our nominee will do all he can to address in a 
meaningful way the issues of expedited removal and the 
detention of asylum seekers.
    A second issue that we have had an opportunity to discuss 
that I am looking forward to working with you on is on health 
care providers in the United States. I come from a rural State, 
and many of our health care providers in rural areas are 
foreign-born doctors. We are heavily dependent upon them, and 
we are heavily dependent upon foreign-born people to provide 
health care in this country. It is a vital issue in my home 
State as well as in the States of many Members of the U.S. 
Senate. There is an extraordinary shortage, particularly in 
rural areas, and we need to address this particular problem as 
well.
    A third issue that I join my colleague, the chairman of the 
committee, in noting is that I am heartened to hear that the 
President has identified addressing the processing backlogs at 
INS as an administration priority. The problem of processing 
delays and inadequate customer services at INS is a 
consistently large portion of the constituent service caseload 
in my State. It is the second highest area of constituent 
services problem questions that I get behind Veterans 
Administration. Sometimes Congress can act alone to address 
this problem, such as in last year's H-1B visa bill, where we 
enabled existing H-1B visa holders to take a new job offer 
prior to the completion of his or her paperwork at INS. But in 
many cases, providing relief from Congress is not possible. 
That is when we must turn to the INS with our sincerest hopes 
for improvement in this particular area.
    Finally, Mr. Chairman, let me close with a reference to Mr. 
Ziglar's written statement where he talks about America being a 
shining city on a hill. That was a phrase that we are all 
familiar with. It is a biblical phrase. It was also one used by 
Ronald Reagan in his final speech to the Nation, where he did 
indeed say that he saw America as a shining city on a hill, and 
he said--and this is a quote: ``And if this city has walls, the 
walls have doors. And the doors are open to those with the 
energy and the will and the heart to get in.''
    That's the way I saw it, and that's the way I see it. I 
also believe that Mr. Jim Ziglar, in taking this position, sees 
it exactly that way, and that is when we operate the best, when 
America appeals to the hope in men's hearts rather than the 
fear that may be in their eyes.
    I look forward to working with you in this important 
position for the future of our country.
    Senator Kennedy. Thank you very much.
    We have Senator Leahy, the chairman of the full committee, 
here. We would welcome to hear from you.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Chairman Leahy. I am simply going to put my statement in 
the record. I know that you and Senator Brownback and I have 
been working on legislation along the lines of the Refugee 
Protection Act that we introduced in the last Congress. We will 
want to work with you on that.
    I have been chairing a hearing on the FBI, and I am going 
to have to go back to some aspects of that now, besides which I 
read in the New York Times this morning that you are 
controversial, so I would much rather let Ted and Sam take over 
the hearing and let them worry about that.
    I should note, though, for the record, Mr. Chairman, in 
seriousness, in following up on what my good friend Thad 
Cochran said about the situation during impeachment, I was very 
much involved with a number of the aspects of that, including 
the depositions that took place. I said then privately to Mr. 
Ziglar, and I want to say it publicly--I know, in fact, Senator 
DeWine is here. He and I were put in charge, one for the 
Republicans, one for the Democrats, of handling a very delicate 
and very sensitive part of that whole situation. I told Mr. 
Ziglar at the time he handled it more professionally than I 
ever could have imagined anybody could, but also did it without 
even a hint, publicly or privately, of partisanship. He did it 
with the most professional aspect of the Senate. He was there 
to protect the Senate's role. He did that. I don't think--and I 
think Senator DeWine would agree with me. There was never any 
indication to either side of any political bias.
    [The prepared statement of Senator Leahy follows:]

   Statement of Hon. Patrick Leahy, a U.S. Senator from the State of 
                                Vermont

    The nomination of James Ziglar to be Commissioner of the 
Immigration and Naturalization Service is a very important one 
for our nation and for Vermont. The next Commissioner will hold 
office at a pivotal time for the agency and for immigration 
policy in the United States. The Administration has expressed 
interest in reorganizing the INS and having the new 
Commissioner implement the reorganization plan. The new 
Commissioner will also inherit a number of questionable 
immigration policies that Congress enacted five years ago in 
the Illegal Immigration Reform and Immigrant Responsibility 
Act. In addition, many important immigration issues, including 
the way in which the United States should treat undocumented 
workers from Mexico and other nations, remained unresolved at 
the end of the last Congress and promise to be major issues 
during the coming years.
    We are fortunate in the Senate to have the benefit of 
Senator Kennedy and Senator Brownback serving as Chairman and 
Ranking Member of this Committee's immigration subcommittee, 
and I am confident that the nominee will find them to be 
extraordinarily helpful and dedicated. The nominee will also 
benefit from the interest in immigration issues in both 
parties, as Congress should be ready to provide the INS with 
the resources it needs to achieve its mission. And the new 
Commissioner will also find that there are many fine men and 
women and well-run offices and programs at the INS, including 
the Law Enforcement Support Center, the Vermont Service Center 
and Sub-Office, the Debt Management Center, the Eastern 
Regional Office, and the Swanton Border Patrol Sector, all 
located in my State of Vermont.
    We in the Senate know Mr. Ziglar well from his time as 
Sergeant at Arms. The last few years in the Senate have been 
difficult and partisan, but Jim Ziglar found a way to serve 
everyone. During the impeachment trial, the American people saw 
Chief Justice Rehnquist presiding. They did not see all the 
work that Jim Ziglar did behind the scenes to make a difficult 
process run as smoothly as possible. We here all owe him a debt 
of gratitude for his hard and effective work.
    Before he came to the Senate, Jim Ziglar had a long and 
distinguished career in investment banking and the law, and 
served as Assistant Secretary of the Interior for Water and 
Science during the Reagan Administration. He also was a law 
clerk for Justice Harry Blackmun.
    He has chosen to take on a new challenge with the INS, and 
although I am sure that many of us on the Committee will have a 
number of questions about his views on immigration matters, I 
applaud his willingness to head the agency during what promises 
to be an eventful period.
    One of the bigger issues facing the next Commissioner will 
be restructuring the INS. I strongly support improving the 
agency and giving it the resources it needs. The tasks we ask 
the INS to do range from processing citizenship applications to 
protecting our borders, and I agree that there are some 
internal tensions in the INS' mission that might be resolved. I 
also believe, however, that we must ensure that the INS does 
not lose its strengths, which I think are well represented by 
the great efficiency of the INS offices in Vermont. I intend to 
play an active role in the development and consideration of any 
INS reorganization plan.
    In addition to ensuring a fair and sensible organization, I 
have a number of other legislative priorities for this Congress 
that I would like to raise today, and I want to ask the 
Administration and the nominee for their help in making them 
law. First, Senator Brownback and I, along with Senator Kennedy 
and others, are developing legislation along the lines of the 
Refugee Protection Act that we introduced in the last Congress. 
I hope that this legislation will accomplish a number of needed 
goals, including restricting the use of expedited removal to 
times of immigration emergencies and reducing the use of 
detention against people seeking asylum.
    The use of expedited removal, the process under which 
aliens arriving in the United States can be returned 
immediately to their native lands at the say-so of a low-level 
INS officer, calls the United States' commitment to refugees 
into serious question. Since Congress adopted expedited removal 
in 1996, we have had a system where we are removing people who 
arrive here either without proper documentation or with 
facially valid documentation that an INS officer simply 
suspects is invalid. This policy ignores the fact that people 
fleeing despotic regimes are quite often unable to obtain 
travel documents before leaving--they must move quickly and 
cannot depend upon the government that is persecuting them to 
provide them with the proper paperwork for departure. In the 
limited time that expedited removal has been in operation, we 
already have received reliable reports that valid asylum 
seekers have been denied admission to our country without the 
opportunity to convince an immigration judge that they faced 
persecution in their native lands. To provide just one example, 
a Kosovar Albanian was summarily removed from the U.S. after 
the civil war in Kosovo had already made the front pages of 
America's newspapers. I believe we must address this issue in 
this Congress.
    Second, I hope that this Congress will examine some of the 
other serious due process concerns created by passage of the 
Antiterrorism and Effective Death Penalty Act and the Illegal 
Immigration Reform and Immigrant Responsibility Act in 1996. 
Through those laws, Congress expanded the pool of people who 
could be deported, denied those people the chance for due 
process before deportation, and made these changes retroactive, 
so that legal permanent residents who had committed offenses so 
minor that they did not even serve jail time suddenly faced 
removal from the United States. The Supreme Court has recently 
limited some of the retroactive effects of those laws, in INS 
v. St. Cyr, but there is more work to do to bring these laws 
into line with our historic commitment to immigration. This-new 
legal regime has created numerous horror stories, including the 
removal of noncitizen veterans of the American armed forces for 
minor crimes committed well before 1996. In the last Congress, 
I introduced a bill that would have guaranteed due process 
rights for veterans, a bill that was supported by the American 
Legion and other veterans' groups, and I plan to introduce 
similar legislation this year. In addition, I am a proud 
cosponsor of Senator Kennedy's Immigrant Fairness Restoration 
Act, which would restore a broad range of due process rights to 
immigrants. Third, I have introduced S. 864, the Anti-atrocity 
Alien Deportation Act, which makes aliens who commit acts of 
torture, extrajudicial killings, or other atrocities abroad 
inadmissible to and removable from the United States, and 
establishes within the Criminal Division of the Department of 
Justice an Office of Special Investigations with responsibility 
over all alien participants in war crimes, genocide, and the 
commission of acts of torture and extrajudicial killings 
abroad. This legislation passed the Senate in 1999 and now has 
bipartisan support in the House. I hope that it will become law 
this year.
    Fourth, the Senate needs to act quickly and approve S. 778, 
legislation introduced by Senators Kennedy and Hagel to extend 
the deadline for people seeking to adjust their immigration 
status under section 245(i) of the Immigration and Nationality 
Act. Section 245(i) allows people who are eligible to become 
legal permanent residents of the United States to apply for 
that status from within the country, instead of having to 
return to their home countries to do so. This policy keeps 
families together, allows employers to retain valued employees 
without interruption, and raises substantial revenue for the 
Treasury through the $1000 fees that applicants must pay. This 
provision, which had previously been repealed, was restored for 
a four-month period at the end of the last Congress and has now 
expired again. There is bipartisan agreement in the Senate that 
that four-month period was insufficient, and that we should 
extend the program for another year. I plan to help Senators 
Kennedy and Hagel move this legislation through the Committee 
as quickly as possible, and I hope that the full Senate will 
act on it promptly.
    Finally, there are other outstanding issues from the Latino 
and Immigrant Fairness Act, which so many of us strongly 
supported in the last Congress, that we must resolve. First, we 
need to figure out a way to allow some undocumented workers to 
adjust their immigration status. The White House is apparently 
considering taking steps with regard to undocumented workers 
from Mexico. I am encouraged by the White House's apparent 
interest in this issue, but I believe that we should treat 
undocumented workers equally, without regard to their native 
country. Second, we need to change our law so that immigrants 
who fled from right-wing governments in Haiti, Guatemala, El 
Salvador, Honduras, and Liberia are treated the same way under 
our immigration law as we treat those who fled left-wing 
governments in Nicaragua and Cuba. Last year, we had the strong 
support of the Clinton Administration on this issue, and I hope 
that the Bush Administration will look closely at the issue and 
reach the same conclusions.
    In conclusion, we have a lot of work to do on immigration 
policy during this Congress and this Administration. From my 
experience with the nominee, I am confident that he will be a 
good partner in these efforts.

    Senator Kennedy. Thank you very much.
    Senator Hatch, we welcome you.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Thank you, Senator Kennedy.
    I just want to welcome you and your family here and just 
let everybody know that we believe you have done a terrific job 
here. You have the right combination of abilities and 
management skills that really are needed at this very troubled 
agency. It is in dire need of reform and direction.
    Just to cite a couple of recent examples reported by the 
media, in March of this year, the Department of Justice 
Inspector General issued a report criticizing INS for its 
inability to account for approximately 61,000 pieces of 
property worth nearly $70 million. This figure includes more 
than 500 weapons--six of which have been linked to crime--and 
thousands of computers that may contain sensitive information. 
And in June, the Department of Justice revealed that the INS 
was deporting violent criminal aliens from the United States on 
commercial airliners, without any escort whatsoever.
    I don't think the INS can continue to function as a good 
agency without well-defined direction, internal integrity, and, 
of course, a commitment to serve, and dedication to fiscal 
responsibility. I think you are the right person at the right 
time for this job, and, frankly, I am very grateful that you 
are willing to serve in this very difficult job. It is 
demanding, it is difficult, and I have every confidence in the 
world in you. I am just very grateful that you are willing to 
take on this assignment and look forward to working with you.
    Senator Kennedy. Thank you very much.
    Senator Durbin?

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you, Mr. Chairman.
    I want to join the chorus of praise for Mr. Ziglar and his 
service as Sergeant-at-Arms in the United States Senate. When I 
saw Jim on the floor and learned that he was going to accept 
this appointment, I told him--and I sincerely believe this--he 
has accepted one of the toughest assignments in the Federal 
Government. About three-fourths of the casework in my Senate 
offices in Illinois relate to the INS. It is all about 
immigration, visas. And we work more closely with that agency 
than any other agency of the Federal Government. And I will 
have to tell you that even though I was a strong supporter of 
the Clinton administration, I had some very disappointing 
experiences with the INS.
    I spoke to Ms. Meissner about that. In fact, I reached a 
point at one stage in the appropriations process where I 
withheld several million dollars from the INS appropriation 
demanding some changes in the way that they have treated 
people. I thought that it had reached that point. I just don't 
do that as a rule. I did it out of desperation.
    I have to tell you, there is a lot of work in your agency. 
I think many of your employees are overwhelmed. I assume that 
is the reason they don't return phone calls. I hope that 
changes. I hope that Members of Congress who call--and I hope 
that it is not overworked, but on emergency situations receive 
a response, because I don't pick up the phone unless I think 
all else has been tried and the normal process has been 
followed and there is just nowhere to turn. But I can tell you, 
I have faced frustrations with the agency when they were 
totally unresponsive in what I consider to be emergency 
situations.
    Secondly, you have been dealt a very tough hand of cards 
here because you are being asked to enforce some laws that I 
think are fundamentally unfair and unjust and unreasonable. 
They are laws passed by this Congress during the Gingrich era 
when there was talk about getting touch on immigrants. They are 
laws that are just patently unfair and unreasonable to people 
who are trying to do their very best to bring their family 
together and to lead a good life.
    I am troubled by one of those laws, which has basically 
said that if you are an undocumented high school student who 
has lived as long as 15 or 16 years in the United States, you 
cannot qualify for in-state tuition at any college or 
university, nor can you qualify for scholarship assistance. I 
have met with these kids. They can't understand it. And when I 
ask the INS what are these children supposed to do at this 
point in their lives, they said, ``Go home.'' Well, the news, 
of course, is they are home. They are here in the United 
States, and they want to be educated, and they want to make a 
life for themselves.
    That is the kind of law which, unfortunately, has been sent 
you way to enforce. I hope that you can work with us to not 
only be responsive but also to talk about some modernization 
and changes in these laws to deal with these situations which 
are truly outrageous.
    The quote from President Reagan, your own quote about the 
city on the hill, is an inspiring one, and now it is a job for 
all of us. As the son of immigrant, serving in the United 
States Senate, I have a special sensitivity to this. I think 
that all of us must remember where we came from and that 
somebody in our background and our family decided to come to 
this country and make a go of it, and that is why it is such a 
great Nation.
    But I am sure that you are going to be approved by the 
Senate because it is a big cheering section for Jim Ziglar, as 
it should be.
    Thanks, The Chairman.
    Senator Kennedy. Thank you very much.
    Senator DeWine?

STATEMENT OF HON. MIKE DEWINE, A U.S. SENATOR FROM THE STATE OF 
                              OHIO

    Senator DeWine. Thank you, Mr. Chairman.
    Jim, we are delighted with your nomination. I had the same 
experience that Senator Leahy did during the impeachment, 
working very closely with you on one of the more delicate 
assignments, and you carried that out with perfection and 
impartiality. And I know that is how you are going to handle 
the job as INS Director.
    It is a tough job. You inherit an agency that is a mess. 
Where do we start? Each one of us has had the same experience. 
It is anecdotal, yes, when we look at our casework back in our 
home States, but the substance of our casework involves human 
beings. And I think that is what makes it so tough for all of 
us, is that we are dealing with people's aspirations, their 
goals, their families, their kids.
    The anecdotal, frankly, has become the pattern. The pattern 
has become the norm. It comes from a culture in your agency, 
and your biggest job is to change that culture. Now, you have 
got good people in there, but you have got to change the 
culture. Part of it is Congress' fault. We need to change some 
laws. And I intend to be a part of trying to do that this year, 
working with the President, working with my colleagues. But a 
lot of it is an attitude problem, and it is something that you 
are going to have to address. I think the hardest thing for a 
manager to do is to change a culture, and that is going to be 
your main challenge.
    I believe that the INS does need a new perspective, but I 
also believe that you can provide that. There is a culture at 
INS that really hinders its ability to carry out the spirit of 
our immigration laws. These laws are really intended to create 
an orderly process so that immigrant families can stay 
together, foreign workers can come to the United States to 
benefit them, but also to benefit our economy. And, finally, 
those fleeing persecution from their home countries can find 
refuge in this great country of ours that you have talked about 
in your opening statement.
    So I look forward to working with you. I think you are 
going to do a good job. It is a challenging job, but we are 
here to try to help you.
    Thank you.
    Senator Kennedy. Mr. Ziglar, we would be glad to hear from 
you. We look forward to your testimony.

 STATEMENT OF HON. JAMES W. ZIGLAR, NOMINEE TO BE COMMISSIONER 
         OF THE IMMIGRATION AND NATURALIZATION SERVICE

    Mr. Ziglar. Thank you, Mr. Chairman. I am honored to be 
here today as President Bush's nominee to be Commissioner of 
Immigration and Naturalization. I am grateful to the President 
and to the Attorney General for the confidence that they have 
expressed in me by nominating me for this job.
    I also want to thank the previous panel of Senators that 
were up here endorsing my nomination. Senator Steve Symms, who 
was sitting right next to me--I guess he is gone--leaned over 
to me and said, ``Boy, they really want to get rid of you.''
    [Laughter.]
    Mr. Ziglar. So I am not sure how you read their coming, but 
I will take it as a compliment. Senator Lott and I, as all of 
you know, have been friends for almost 50 years, though neither 
of us look like we have reached 50s, I would hope.
    Senator Cochran and I have been friends for a long time, 
but not as long as Senator Lott, and he serves in the seat that 
Jim Eastland held, who was chairman of this committee, as you 
know.
    And, of course, Senator Daschle is my newest of the three 
friends, but we have had a great working relationship in the 
last 2 years, and it has been an honor for the last, now, I 
guess, 6 weeks to serve as the Sergeant at Arms under his 
tutelage. He is a great fellow.
    I do want to introduce my wife.
    Senator Kennedy. Please.
    Mr. Ziglar. This lovely creature back here is my wife, 
Linda.
    Senator Kennedy. You are very welcome. We are delighted to 
have you here.
    Mr. Ziglar. She is clearly the person that keeps me out of 
trouble and my best advisor.
    I also want to tell you that I have three sons, but because 
of the scheduling, none of them could be here. However, I am 
happy to report that they are gainfully employed and not on my 
payroll. And, therefore, I excused them for not coming to this 
hearing.
    I also want to thank a number of friends here, including a 
lot of Sergeant at Arms employees for coming today.
    I also want to thank the members of this committee and a 
lot of members who are not members of this committee for the 
time they have given me to talk about INS issues in the last 
period since I was nominated. I have learned an awful lot from 
your perspective about these issues and how you deal with them 
from a constituent point of view, and I have to tell you, that 
has been very helpful. That is going to give me a head start on 
prioritizing how I want to do things. It has been very valuable 
to me. Everybody should have my experience of being right here 
in the middle of this all and having a chance to see as many 
members as I have because it really is a great head start. And 
I urge you to talk to nominees when you have got a chance 
before they come into the job because it is very helpful. 
Certainly to me it was.
    I also want to thank the Senate for the opportunity of 
being Sergeant at Arms. I have made a lot of friends on both 
sides, and that has been the greatest part of this experience.
    Senator Kennedy, at the possibility of appearing to pander, 
I want to tell you how pleased I am that you are chairing this 
hearing because, if my memory serves me correctly, you are the 
only sitting Senator currently who was a member of this 
committee in the 1960s when I was a young fellow working on the 
staff of the committee. In fact, I used to sit, as you know, 
right behind the chairman where this young man is sitting, 
right next to Senator Everett Dirksen, the chairman and the 
ranking member. And I had a very important job. My job was to 
keep Jim Eastland in cigars and to hold a pack of cigarettes 
for Everett Dirksen, because Senator Dirksen had emphysema and 
he was always trying to quit smoking. And he would tell me--he 
would give me his cigarettes and say, ``Now, only give me one 
cigarette during this hearing.'' And, of course, by the end of 
it, we got in a fistfight over how many he was going to smoke.
    But I tell you what, that was a great experience. It was my 
first experience with bipartisanship.
    Senator Kennedy. I think that was up until about 5:00 in 
the afternoon.
    [Laughter.]
    Mr. Ziglar. I wasn't going to bring that up.
    I am sure, Senator Kennedy, you also don't remember that in 
1972, you honored me by accepting an invitation to come over to 
the Supreme Court and have a closed lunch with Supreme Court 
law clerks. You remember that? Well, at that time, as you know, 
I was clerking for Mr. Justice Blackmun. I want to tell you 
that after that, my colleagues, my fellow clerks over there, 
thought, Boy, Ziglar is a big hitter, he can get Kennedy over 
here. And I want to tell you, Senator, I appreciate it and I 
made good use of it.
    Senator Kennedy. You hear that, Orrin?
    [Laughter.]
    Senator Hatch. I have made good use of it myself.
    [Laughter.]
    Senator Hatch. All to my detriment, though.
    Mr. Ziglar. Mr. Chairman, I have submitted a written 
statement for the record. Those words in there are all my 
words. I obviously paraphrased from the Bible and from Ronald 
Reagan, but those are my words, and I would appreciate it if 
those words could be included in the record.
    Senator Kennedy. Yes, they will be.
    Mr. Ziglar. Mr. Chairman, I didn't seek this job, but I am 
enthusiastic about doing it. Together with the Congress, the 
President, the Attorney General, and the very dedicated 
employees at the INS, I think we can make a big difference in 
the lives of millions of Americans and millions of potential 
Americans. And that is why I accepted this nomination.
    Mr. Chairman, I believe that America ought to be welcoming 
to immigrants and that we ought to be proud of the fact that 
people around this world want to come to the United States, 
that we are a magnet for those people.
    Now, I think people of good faith everywhere hope that 
someday in this world every place is going to have freedom and 
prosperity and peace. But until we have that time, I hope that 
this country always is the beacon of hope and freedom for those 
people.
    Mr. Chairman, I have a lot of goals for the INS, if you 
folks decide to give me a tenure over there, and I wanted to 
give you a summary of my overarching goals. These are the big 
goals, and as you can figure out when you hear them, they have 
lots of little sub-parts to them, which obviously we don't have 
time, at least in my opening statement, to talk about.
    The first one is that I want every person who comes in 
contact with the INS, no matter what the context is that they 
come in contact with the INS, to be treated with respect and 
dignity. One issue I do want to highlight, Mr. Chairman--and 
you and I have talked about it, and I know that several 
Senators here, Senator DeWine, Senator Hatch, Senator 
Brownback, and others I have talked with, a particular interest 
is the detention and expedited removal issue. I am very 
concerned about that in particular reference to where children 
and asylum seekers are part of that issue. I think we need to 
be careful how we treat children that come within the 
jurisdiction of the INS, and I definitely think that we need to 
change the process where asylum seekers come here to make sure 
that we know who these people are and what their claims are and 
whether they are legitimate before we turn around and put them 
on a plane back to an uncertain future.
    The second goal is that every person who petitions the INS 
for some benefit, whatever that benefit is, and regardless of 
the outcome of that petition--whether it is a good outcome or a 
bad outcome from their perspective--every person who petitions 
the INS will get an efficient, hopefully short processing time, 
but that when they walk away from the INS they say, you know, I 
got the right quantity of services, I got the right quality of 
service, and I got the courtesy that I am entitled to, 
regardless of the outcome. That is what I want to see happen. 
And like Senator DeWine says, that is going to take a culture 
change in some places.
    Thirdly, I want to re-energize the INS and, where 
necessary, to change the culture in a very positive direction, 
again, as Senator DeWine has pointed out. The vast majority of 
INS employees--and I have met a few of them, and I am 
impressed. The vast majority of them are dedicated, 
professional, hard-working Americans. They deserve a workplace 
environment that is full of opportunity and that they have an 
enthusiasm for their mission.
    I can tell you, Mr. Chairman and members, if we can 
accomplish that alone, the rest of these problems are going to 
fall in line a whole lot more easily.
    Mr. Chairman, I have gone on too long. They told me how 
long I should talk, but in closing, I want you and the entire 
Congress to know that if you confirm me, I not only want to 
work with the Congress, I insist on working with the Congress 
because that is the only way that we are going to be successful 
in this effort.
    Thank you, Mr. Chairman, and I look forward to answering 
your questions.
    [The prepared statement and biographical information of Mr. 
Ziglar follow.]

    Statement of James W. Ziglar, Nominee to be Commissioner of the 
                 Immigration and Naturalization Service

    Mr. Chairman and Members of the Committee:
    It is an honor to appear before you today as President 
Bush's nominee for the position of Commissioner of Immigration 
and Naturalization. I am grateful for the confidence that the 
President and the Attorney General have expressed in me by 
nominating me to this position.
    The task that I will be undertaking, should the Senate 
confirm me, is important to each of us as citizens and to those 
who yearn for the freedom and opportunity offered by this great 
nation. I am humbled by the opportunity to serve and I am 
energized by the challenge before me.
    I hope you will indulge me for a moment as I express my 
gratitude for the honor and privilege that the Senate has 
bestowed upon me for the past two
    and one-half years in allowing me to serve as your Sergeant 
at Arms. It has been a fascinating and historic experience. But 
for all those unique experiences, what I will take with me are 
the warm friendships that I have been privileged to form with 
Members and staff of both parties and many ideologies. I will 
miss the daily contact, but I won't be that far away should you 
choose to confirm me for this position.
    Mr. Chairman, I would like to tell you, this Committee and 
the Senate what you can expect from me. First and foremost, you 
will have my full cooperation with every member of Congress, 
regardless of party affiliation or ideology. Further, I will be 
particularly attuned to the concerns of the various committees 
of jurisdiction. I will endeavor to always be forthright, 
truthful and honest in my dealings with you, with the dedicated 
employees of the INS and with the American people. That being 
laid upon the record, I want to give you a flavor of my 
philosophy and a brief overview of some of the goals I hope to 
achieve, if confirmed. I will also endeavor to describe my 
operating style, although most of you already have seen it in 
action. Finally, I would like to conclude with a personal note.


                               PHILOSOPHY


    The Declaration of Independence very simply and elegantly 
states that ``all Men are created equal, that they are endowed 
by their Creator with certain unalienable Rights, that among 
these are Life, Liberty and the Pursuit of Happiness''. Those 
words are deeply imbedded in my mind and in my heart.
    The drafters of the Declaration of Independence did not say 
that all United States citizens are created equal or that all 
United States citizens plus other specifically described 
individuals or groups are created equal-they declared that 
``all Men are created equal''. That principle, and those that I 
derive from my own religious beliefs and personal value system, 
provide the foundation for my views on immigration and many 
other issues. I hasten to add that I believe that the drafters 
included all of mankind in the term ``Men''.
    Notwithstanding the problems that we face in this country 
involving race relations, opportunities denied, or unequal 
treatment on the basis of economic or social status, I still 
believe that the United States is that shining city on the 
hill, casting a beacon of light and hope for all the world to 
see and follow. We can, and we must, do better in addressing 
our internal social and economic ills. But we are, and I hope 
always will be, a living symbol of religious, political and 
economic freedom and opportunity. That makes us a magnet for 
those who share our dreams and hopes.
    My greatest hope is that there will be a day when all 
nations achieve democracy, freedom, opportunity and prosperity 
and, therefore, people no longer will need to search for a 
better life elsewhere. My greatest fear is that the day will 
come when America loses those cherished qualities I just 
described and consequently ceases to be a magnet for the tired, 
the poor, the homeless, the tempest-tossed, the wretched refuse 
of teeming shores, and the huddled masses yearning to breathe 
free. What a crime it would be if in our fervor to protect our 
``way of life,'' we lose the very things that have made and 
continue to make that way of life possible.
    We should remember that a large number of the people who 
come to our shores are economic refugees and are not here for a 
free ride. They provide important services, labor and ideas 
that keep our economy strong and vibrant. They are the analog 
to the 19th century American pioneers that we so revere. They 
are here to take risks and work hard. They remind those of us 
who have lost a little of that pioneer spirit that opportunity 
still abounds. They refresh and in fact, embody, the American 
spirit.
    America's strength is found in its religious, cultural, 
racial, ethnic and intellectual diversity, and in our 
willingness to honor and celebrate that diversity. Our 
Constitution guarantees us the right to be different, to think 
differently and, within the bounds of reasonable and just laws, 
to act differently. The constant infusion of new immigrant 
blood into our society tests and strengthens our nation. 
Immigration is a virtue, not a distraction or a danger.


                                 GOALS


    Mr. Chairman, I recognize and support the principle that 
every sovereign nation has a right-indeed a duty-to protect the 
integrity of its borders. How you carry out that duty is a 
measure of the character of a nation and provides a prism 
through which individuals and other members of the world 
community fashion their judgment of that nation.
    If I am confirmed for this position, my primary goal will 
be to insure that every person who comes into contact with the 
Immigration and Naturalization Service, regardless of their 
citizenship, the circumstances of their birth or any other 
distinguishing characteristic, and regardless of the 
circumstances under which they find themselves within the ambit 
of the INS, will be treated with respect and dignity, and 
without any hint of bias or discrimination. The first 
impression is a lasting impression and we have only one 
opportunity to make a first impression-the first impression of 
America should be that of a compassionate, caring and open 
nation of opportunity.
    A significant part of this goal can be achieved by 
providing efficient and friendly service to all who petition 
the INS. Even if the outcome is one that a petitioner does not 
like, I want his or her experience with the INS to have been 
satisfactory with respect to the quantity, quality and courtesy 
of the service provided. President Bush's goal of a six-month 
standard for processing cases is appropriate and, I believe, 
obtainable. We will put in place processes, performance 
standards and accountability measures that will allow us to 
achieve the President's directive.
    My goal is to provide the leadership that will create an 
atmosphere and a culture where those who have the 
responsibility for enforcing our immigration laws do so in a 
vigorous, measured, consistent, even-handed and fair manner. 
Where force is required, only the minimum amount necessary to 
achieve a legitimate law enforcement objective will be 
tolerated.
    I will encourage the employment of common sense, compassion 
and good judgment in the decision-making process at every 
level, particularly those areas where the INS has wide 
discretion. I believe that the vast majority of INS employees 
today are exercising that good judgment. But there are 
instances where common sense has not prevailed or discretion 
has been abused. We will not tolerate such actions or conduct.
    I want to insure that we detain only those persons who 
clearly must be detained by mandate of law or that should be 
detained, consistent with due process requirements, for the 
protection of society. Those persons who are detained must be 
free of abuse, harassment or any other form of substandard or 
discriminatory treatment. I regard the detention issue as a 
critical issue, particularly as it pertains to children and 
families. I pledge to you that I will work with you to 
guarantee that the most vulnerable of immigrants, especially 
children, are treated with particular care.
    Finally, Mr. Chairman, I am committed to accomplishing a 
rational restructuring of the INS in order to deliver the 
services required of the agency in the most efficient, 
consistent and courteous manner. Although I have not arrived at 
any firm conclusions as to the form or manner of the 
restructuring, I am convinced that an overhaul is needed.


                            OPERATING STYLE


    I want to emphasize what I stated at the outset--if 
confirmed, I intend to carry out my duties as Commissioner of 
Immigration and Naturalization in a non-partisan, even-handed 
and fair manner. I have attempted, and I hope succeeded, to 
follow that path as Sergeant at Arms and I will endeavor to 
carry on in the same manner. Immigration is not and should not 
be a partisan issue--it is a truly American issue.
    You all know me fairly well, and you know that I believe in 
following and enforcing the rules. You can rest assured that I 
will do my best to execute the laws as enacted by Congress and 
interpreted by the Courts. Where I have discretion, I will 
always endeavor to exercise it in a fair, compassionate and 
common sense manner.
    I give you fair warning that I will be a strong advocate 
for the almost 33,000 employees of the INS. I have gotten to 
know a few of those employees in the past few weeks and I am 
impressed with their dedication, hard work, loyalty and 
professionalism. Because of some adverse publicity and harsh 
criticism over a sustained period of time, INS employees have 
been painted with a very broad brush. One would think that 
everyone and everything is dysfunctional. I do not believe it 
and neither should you.
    I am firmly convinced that the vast majority of INS 
employees are just like those I have met in the past few 
weeks--dedicated, hard-working, loyal and professional. What 
the organization needs are leadership, support, a clearer sense 
of direction, and recognition that the organization has 
experienced explosive growth in the past few years. Where we 
lack resources to do the job, you can be assured that I will be 
on the Hill asking for your support. Where our existing 
resources are not properly aligned or not properly managed, we 
will see to it that American taxpayers receive their money's 
worth. INS employees can expect me to do my best to help create 
an atmosphere where performance, integrity, creativity and 
risk-taking are valued. I want INS employees to have rewarding 
careers and to experience the satisfaction of knowing that they 
make a positive difference in the lives of millions of future 
Americans.
    To achieve the aggressive goals that the President has set 
for the INS, it will take much more than leadership from the 
Commissioner, It will require that we all accept the mantle of 
leadership--the President, the Congress, the Attorney General 
and each and every employee of the INS. Together we will be 
able to do remarkable things. together we will help fulfill the 
dreams of so many whose very lives and freedom depend on 
actions taken by the INS.


                                PERSONAL


    I am aware that criticism has been leveled at the President 
for nomination someone who has no discernible experience in the 
field of immigration law and policy. I understand and 
appreciate that perspective. I am honored that the President 
and the Attorney General sought me out for this important task 
and I am committed to doing my best to justify that trust that 
has been reposed in me.
    I consider myself one of the most fortunate individuals on 
the face of this earth. I have been blessed with a wonderful 
family, great friends, good health, financial success and a 
wide variety of work and life experiences and opportunities. I 
hope that my experiences in the public and private sectors have 
prepared me to take on this very difficult task with a measure 
of wisdom and judgment.
    I grew up in very modest circumstances. It was the 
opportunity that American provides that made it possible for me 
to succeed beyond my wildest expectations. My wish and goal is 
that all Americans and all those who yearn for the freedom and 
opportunity that America providers, will have that same 
opportunity to achieve a dream that is beyond their wildest 
imagination.
    Mr. Chairman, thank you again for the opportunity to be 
here and for the opportunity to serve my country.

[GRAPHIC] [TIFF OMITTED] T0132.001

[GRAPHIC] [TIFF OMITTED] T0132.002

[GRAPHIC] [TIFF OMITTED] T0132.003

[GRAPHIC] [TIFF OMITTED] T0132.004

[GRAPHIC] [TIFF OMITTED] T0132.005

[GRAPHIC] [TIFF OMITTED] T0132.006

[GRAPHIC] [TIFF OMITTED] T0132.007

[GRAPHIC] [TIFF OMITTED] T0132.008

[GRAPHIC] [TIFF OMITTED] T0132.009

[GRAPHIC] [TIFF OMITTED] T0132.010

[GRAPHIC] [TIFF OMITTED] T0132.011

[GRAPHIC] [TIFF OMITTED] T0132.012

[GRAPHIC] [TIFF OMITTED] T0132.013

[GRAPHIC] [TIFF OMITTED] T0132.014

[GRAPHIC] [TIFF OMITTED] T0132.015

[GRAPHIC] [TIFF OMITTED] T0132.016

[GRAPHIC] [TIFF OMITTED] T0132.017

[GRAPHIC] [TIFF OMITTED] T0132.018

[GRAPHIC] [TIFF OMITTED] T0132.019

[GRAPHIC] [TIFF OMITTED] T0132.020

[GRAPHIC] [TIFF OMITTED] T0132.021

[GRAPHIC] [TIFF OMITTED] T0132.022

[GRAPHIC] [TIFF OMITTED] T0132.023

[GRAPHIC] [TIFF OMITTED] T0132.024

[GRAPHIC] [TIFF OMITTED] T0132.025

[GRAPHIC] [TIFF OMITTED] T0132.026

[GRAPHIC] [TIFF OMITTED] T0132.027

[GRAPHIC] [TIFF OMITTED] T0132.028

[GRAPHIC] [TIFF OMITTED] T0132.029

[GRAPHIC] [TIFF OMITTED] T0132.030

[GRAPHIC] [TIFF OMITTED] T0132.031

[GRAPHIC] [TIFF OMITTED] T0132.032

[GRAPHIC] [TIFF OMITTED] T0132.033

[GRAPHIC] [TIFF OMITTED] T0132.034

[GRAPHIC] [TIFF OMITTED] T0132.035

[GRAPHIC] [TIFF OMITTED] T0132.036

[GRAPHIC] [TIFF OMITTED] T0132.037

[GRAPHIC] [TIFF OMITTED] T0132.038

[GRAPHIC] [TIFF OMITTED] T0132.039

[GRAPHIC] [TIFF OMITTED] T0132.040

[GRAPHIC] [TIFF OMITTED] T0132.041

[GRAPHIC] [TIFF OMITTED] T0132.042

[GRAPHIC] [TIFF OMITTED] T0132.043

[GRAPHIC] [TIFF OMITTED] T0132.044


    Senator Kennedy. Well, thank you. Thank you very much for 
your comments.
    I am going to ask you just to talk a little bit about these 
organizations that you have been a part of and that have 
impacted needy people overseas. But let me mention just a 
couple of observations.
    One is I welcome the fact that you are going to tell us 
what you need over there at the INS, because I think you need a 
lot. You have the broad issues of policy, and I will mention a 
couple of those, but we understand that. Today we ought to be 
talking about your own background and experience and competency 
to deal with the challenges of the INS. And down the road, we 
will get into the greater details and the specifics of 
legislation.
    But that is an agency that is in trouble. I hope you will 
ask the Attorney General to visit the INS. I can remember when 
my brother was the Attorney General and visited the INS, and it 
was the first time in 40 years that any Attorney General had 
ever gone down there. I hope you invite him down there and have 
him spend some time and tell him what you need and tell us what 
you need, so that when you come up here on appropriations, you 
can say, Look, if you want us to answer your constituents 
within, you know, 2 weeks or 3 weeks, I need X appropriations. 
If you want it in 6 months, give me X minus this. And if you 
want it in a year, don't expect anything better if you give me 
Y appropriations.
    I think we have got to understand it, and we haven't had 
many people who were willing or had the confidence that you 
really have in dealing with the Congress. And I think you are 
finding out from this hearing that we want to really hear it. I 
think people have enormous confidence in your own very 
successful private sector expenence--understanding management, 
understanding what is necessary to run a department, 
understanding what it means in order to get the morale up in 
terms of developing an organization. You have had remarkable 
success at all these things. But this agency really needs that 
kind of leadership, and I think that that is going to be 
enormously important as you go down the line.
    I would just, if I could, ask you one area, which you have 
referenced, and that is the unaccompanied immigrant children. 
As you know, in 1999 the INS took in its custody 4,607 children 
who came to the United States unaccompanied by a parent or 
adult guardian. More than 2,000 of these children are held in 
jails and youth detention centers across the country, even 
though the overwhelming majority of these children, 80 percent, 
have committed no crime. The INS continues to pursue this 
policy 7 years after the INS agreed to hold the children in the 
least restrictive setting appropriate for minors with special 
needs.
    I have been appalled, quite frankly, by the way that many 
unaccompanied alien children have been treated by the INS, and 
this treatment has included the shackling and the handcuffing 
of children, who are no threat to themselves or others, long 
periods of confinement, inappropriate penal facilities, 
pressuring children to voluntarily depart the country without 
having access to counsel and adequate avenues of humanitarian 
relief when that relief might be appropriate.
    So would you be willing to take a good look at this issue 
and review it and give us your judgment about how we can try 
and deal with that?
    Mr. Ziglar. Senator, I mentioned that in my opening remarks 
for the simple reason that it is at the very top of my list. Of 
course, I have a lot of things at the very top of my list, but 
that is one of them, absolutely.
    Senator Kennedy. Others are here and want to ask you 
questions. I have referenced these other activities, and maybe 
at the end of the hearing, after we have some questions, I will 
ask you about some of those.
    Senator Brownback?
    Senator Brownback. Thank you, Mr. Chairman, and thank you 
again, Mr. Ziglar, for being here.
    I want to focus on treatment of refugees and the refugee 
reform area. You mentioned some comments about that on the 
detention issue at the outset, and I appreciate you saying 
that.
    I note in looking back in the history of the country and 
kind of digging the old wells that are still out there, it was 
400 years ago, approximately, that the first refugees hit our 
shores. Those were the Pilgrims that came here, set foot on 
Plymouth Rock. They were seeking religious freedom at that 
time. And then George Washington had this great comment about 
receiving refugees into our country. He said this, he said, 
``The bosom of America is open to receive not only the opulent 
and respectable stranger, but the oppressed and persecuted of 
all nations and religions.'' And then President Bush even just 
last week at Ellis Island said these words: ``America at its 
best is a welcoming society.'' A consistent thread of how we 
treat both the well-to-do and those who, by struggle and by 
whatever means, are coming to our shore.
    We have talked some privately, and I have held a hearing 
here on the treatment of asylum seekers and on refugees. Can 
you flesh out any further what you are looking at in the brief 
period of time you have had a chance to look at what should the 
INS be doing differently? I think the detention is a key 
starting point of looking at particularly asylum seekers, if 
there are ways not to go into detention, rather by working with 
non-governmental organizations that proffered and made offers 
to keep track of individuals prior to going to hearings. But I 
am wondering if you have given any further thought on this 
particular subject.
    Mr. Ziglar. Senator, I have given a lot of thought to this 
one. My knowledge of what has happened is based upon what I 
have read and stories that I have heard, a lot of which I heard 
up here from you folks. I want to look at the facts and the 
cases up close when I get there, but I can tell you that I am 
not one who particularly likes the idea in general of people 
being detained unless they have been convicted of a crime or 
unless they create some kind of danger to the community.
    So my inclination in general is not to detain people unless 
there is a really valid reason, subject to all the due process 
requirements. So you will find that I am going to look at 
alternative ways to manage these problems, particularly with 
asylum seekers, children, and others, by hopefully using 
community-based organizations or other ways of being able to 
treat these people like the human beings they are.
    Senator Brownback. An issue close to home for me is what I 
mentioned in my opening statement about foreign-born 
physicians. In Ulysses, Kansas, I was there traveling--oh, this 
is probably a year or better ago and met the physician 
community. There are five physicians in Ulysses serving Grant 
County, Kansas. And the physician community consists of two 
Canadians, a Brit, a Pakistani, and somebody from Trinidad. 
That is the physician community that is there. We are heavily 
dependent upon foreign-trained physicians, yet I am finding in 
our casework INS has severely limited the longstanding 
definitions used to grant national interest waivers, 
particularly for physicians.
    One effect of that was to force small hospitals sponsoring 
physicians, in many cases they do in my State, serving on J-1 
exchange visas to endure really a very time-consuming and 
expensive process of labor certification through the Department 
of Labor.
    I raise it and bring it to your attention because I hope 
you will be willing to work with a number of us, particularly 
from rural States, where these are a number of our health 
personnel, on dealing with this topic. It is coming up 
increasingly with nurse shortages. We received a number of 
medical technologists that are foreign born, and I would hope 
you would give that some of your attention as well.
    Do you have any initial thoughts or comments on that?
    Mr. Ziglar. Senator, I am obviously aware of the issue and 
the problem. I can't say that I have studied it in enough 
detail to know how to approach it.
    One interesting fact, though, is that as much as I heard 
about that issue over here, I have the good fortune of having a 
number of Members of the House side who are friends, 
notwithstanding the fact I work in the Senate, that have called 
me about that very issue, particularly because they have a lot 
of rural areas that they serve. And they have a real problem, 
and it is clearly something that Congress, both sides, is very 
interested in and something I will clearly take very seriously.
    Senator Brownback. Well, I hope you can have that at the 
top of your agenda because it really goes to a great need in an 
area that I think there is opportunity to help a lot of people 
out on all sides. I have found, too, that the ones in Kansas, 
the foreign-born physicians, will a lot of times then spend 
time in sending resources back to their home country frequently 
as well, particularly if it is a nation with not as developed 
an economy as ours, that they use the resources and the 
development that they get here to help more people back home as 
well, which to me is the positive, the double positive that you 
can get from something working together like that.
    Senator Kennedy. Senator Durbin?
    Senator Durbin. Thank you.
    Mr. Ziglar, during the course of your interviews within the 
administration in preparation for this position and this 
hearing, is it your understanding that you will be called on to 
discuss policy when it comes to immigration, your experience as 
Commissioner, suggestions you might have for changes in policy?
    Mr. Ziglar. Yes, sir, Senator, it is. And, frankly, if I 
hadn't had a chance to have serious input into the policy, I 
wouldn't have taken the job.
    Senator Durbin. Well, I am glad to hear that because you 
will be on the front line and will see firsthand how these laws 
work or do not work.
    My observation is this: I think that the immigration laws, 
as we have written them historically in this country, really 
are not as relevant as they used to be. Our world is so mobile. 
People move so easily back and forth. What took a several-week 
boat trip for my mother to come from Lithuania to the United 
States is now a matter of a few hours in an airplane. And I 
think that reality is changing immigration as we know it in 
this country.
    Just this past Sunday, President Vicente Fox of Mexico was 
in Chicago, greeted by some 25,000 cheering people. This is the 
fastest-growing minority in the State of Illinois. It grew by 
69 percent in the last 10 years, over 1.3 million Mexicans in 
our State. That is a lot different than we have seen in the 
past. Things have changed. And I think we have to reorder our 
thinking and how we deal with it in a sane and legal way.
    There are so many people living in the United States today 
who are undocumented. At times in our history we have declared 
that if you have been in the United States for a certain period 
of time, you have been a good citizen, haven't broken the law, 
are making a good contribution to the community, we are going 
to give you a chance to become an American citizen. The last 
time we did it I think was 1986, wasn't it, Senator Kennedy?
    Senator Kennedy. That is right.
    Senator Durbin. And we said if you had been here since 
1972, you have your chance, we want you to be part of the 
American family.
    We haven't done it since. It has been 15 years. And you can 
imagine the millions of people who are out there now in 
questionable status.
    Do you think it is time for us to renew that opportunity, 
to say to people, if you have been here, been a good citizen 
for a period of time, we will give you a chance to become a 
legal American citizen?
    Mr. Ziglar. Senator, as you know, in the newspaper there is 
a lot of speculation about discussions particularly with Mexico 
in that vein. I have not been privy to those discussions. I am 
not sure what all the considerations are. I would rather not--
since I don't have the knowledge base to give you an answer 
about that in the context that we are in, I would rather be 
given a little time to study it, and then I would be more than 
happy to sit down with you personally and talk about it. But I 
don't want to make news on something where I am not involved in 
it yet and haven't been involved in it.
    Senator Durbin. Well, that is fair. I don't know if you can 
go so far as to say what you feel about this policy and what 
you feel about our past efforts to give people who have been in 
the United States for a long period of time, whether they 
should have that kind of opportunity, without getting into 
specific numbers or timetables.
    Mr. Ziglar. Senator, let me say it one very short way, if 
you don't mind, and that is, I am not anti-immigrant.
    Senator Durbin. That is good for a person at the INS.
    I will give you an example that I referred to earlier. It 
relates to a bill that I am sponsoring, and I hope to prevail 
on my beloved chairman to hold a hearing on, and that relates 
to a phone call that I received in my Chicago office. A 
fascinating story. A high school student in Chicago, Illinois, 
Korean, a musical prodigy, applied to the Juilliard School and 
was accepted. Her parents, everyone, her family, just elated at 
the chance that she is going to be able to pursue her musical 
career.
    She filled out the application forms, came to the 
realization her parents had never, ever been legally documented 
in the United States. So, of course, it meant that when it came 
to scholarship assistance, under Federal law she couldn't 
qualify for it. We prohibit that if you are not documented. If 
she had been trying to go to a State university, she couldn't 
qualify for in-state tuition because she was undocumented.
    So we contacted the INS and said, What is this young girl 
to do? And they said, ``Go back to Korea.'' Well, there is no 
place to go back to. Her family is here. America is her home.
    That is an illustration of where our law has taken us, a 
law that, sadly, you are going to be asked to enforce. Time and 
again I think you will see the desperation and frustration that 
we see in our offices.
    What is your feeling about the way we treat people in that 
predicament, high school students who have been here for years, 
5 years, 10, 15, done everything right, and now are being 
denied an opportunity for a college education because of our 
law?
    Mr. Ziglar. Senator, once again, I don't mean to be 
evasive. I don't know enough about this issue. I am aware of 
it. I don't know enough about it to give you a reasoned, 
learned opinion on it.
    I do know that the Department of Education has a lot of 
play in this issue, also, and that it probably is going to take 
an effort, a cooperative between the Education and Justice 
Departments and the Congress, obviously, to work out this 
issue.
    But I hear you, and I will promise you this, that we will 
give it our best.
    Senator Durbin. I promise you this: I will give you at 
least 24 hours after you have taken the oath before I call you 
and ask you again.
    Thank you.
    [Laughter.]
    Mr. Ziglar. Mr. Chairman, could I make one comment?
    Senator Kennedy. Sure.
    Mr. Ziglar. Back in, I think, 1982, the chairman asked the 
Congressional Research Service to do a history of immigration 
and naturalization laws and trends. If you haven't read it, it 
is fascinating because it is a travelogue of American history 
and culture. And, Mr. Chairman, I hope that you will ask the 
CRS at some point to update it, maybe next year. But I think 
that would be a great--it is a great document, and I am sorry 
that more people haven't read it.
    Senator Kennedy. That is useful. It was a very helpful 
examination of the history. And it is important to know. We had 
some very odious aspects of immigration, the McCarran-Walter 
Immigration Act, the Asian Pacific Triangle that discriminated 
against Asians, and the national origin quota that 
discriminated against Europeans. So we have had some difficult 
times over that, but it is an important part of American 
history and the Immigration Service.
    Senator Kyl?

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. I want to welcome Jim 
Ziglar, a friend of long, long standing prior to his service to 
the United States Senate. And I think by virtue of my 
conversations with him and those that everybody else has had, 
he is well aware of the challenges that lie before him. He is a 
person of great good will who understands how to listen as well 
as how to make decisions, and I am confident he will do a 
superb job in this position, notwithstanding the difficulties 
that are inherently involved.
    He is also aware that there are literally two halves to 
this job which are greatly different from each other. One has 
to do with enforcement of laws; one has to do with 
implementation of laws relating to immigration matters, 
citizenship and the like.
    There are issues relating to the possible reorganization of 
the Immigration and Naturalization Service. I know he has his 
own ideas on those, and I am hopeful that he will soon be able 
to weigh in with his views since there are those of us in the 
Congress as well as the administration that would like to get 
on with whatever changes might be made. And I don't prejudge it 
in any way. I am anxious to hear, Jim, what you have to say 
about those issues, and I know the administration has been 
waiting until you are in place to do that as well.
    Mr. Chairman, let me just make two comments, and if Mr. 
Ziglar wants to comment on them, that is fine.
    Just relating to the issue that our colleague from Illinois 
talked about, each one of us has stories. I could tell you 
stories about people in my own State that are--while they are 
anecdotal, I suppose they represent large segments of the 
population that really tear at your heart about experiences 
that people had that are heart-rending. And we have to learn 
how to deal with those because of the reality that there are 
people here who suffer one way or another and who would like to 
have the benefits of American citizenship.
    By the same token, I think we also have to recognize that 
the United States is a Nation of laws, that that distinguishes 
us, frankly, from a lot of countries from which immigrants wish 
to come because of the very fact that their countries don't 
treat people equally. They are not nations that abide by laws, 
that grant people freedom.
    In fact, one of the first things that people applying for 
citizenship learn about our country is that we are a Nation of 
laws, and that means that people obey the law. And I think, 
therefore, it presents a difficult situation for all the folks 
involved in immigration to deal with people who have broken 
laws and yet who have very difficult stories to tell.
    We should not, as we consider these issues, think only with 
our heart, but recognize that in the long run it is precisely 
because we are a Nation of laws and that we enforce those laws 
that we remain a great country, a country that can afford to be 
a beacon of hope to the rest of the world and, indeed, as I 
said, a country that everyone else--most everyone would like to 
come to.
    There is a specific problem in my own community that I 
haven't had a chance to mention to you, and I just wanted to 
mention it, and I hope that my colleagues can perhaps help with 
this, too, because it gets back to the very difficult problem 
of resources. We have talked about the delay in processing of 
various kinds of documents that INS needs to process, the 
delays that occur in applications and so on. There are also 
problems that result from a lack of resources on the Border 
Patrol side of things.
    We have been adding the numbers of Border Patrol agents to 
our border with Mexico to great effect. It has been able to 
stem the tide of smuggling of contraband drugs, illegal 
immigrants and so on.
    One of the things that has occurred as a result, though, is 
that we have closed down some offices in the interior. In my 
own State, in Phoenix, for example, there is no more uniformed 
Border Patrol.
    The net result is that people who have come to the United 
States illegally, many of whom have been smuggled in by what at 
least the Mexican Americans call coyotes, are horribly 
mistreated. They are the subject of robbery, rape, and assault, 
kidnapping, and there is no way really to help these people or, 
even when they are discovered, to be able to send them back to 
their country of origin in a safe and humane way. There is no 
way to prevent felons from melding in with this group, 
including the very coyotes that bring them over and take 
advantage of them.
    I am very glad that both Mexico and the Justice Department 
and local law enforcement have begun to focus on the arrest 
and--the tracking down and arrest and prosecution of these 
smugglers, these human smugglers, who mistreat people so badly. 
They take all of their money, mistreat them, and then basically 
turn them over to American law enforcement, which can't deal 
with them very effectively, because this is one way to get at 
the heart of the problem and in the meantime save a lot of 
people from some very difficult circumstances.
    We will need to have more resources. When I mentioned this 
to the Attorney General, he said, well, does that mean we 
should take people from the border and bring them to the 
interior? Of course, that is just robbing Peter to pay Paul.
    So I guess my plea to both my colleagues as well as you is 
that we, A, recognize the nature of this problem; B, the 
opportunities that it actually presents for us to do something 
worthwhile both in enforcement of law and helping people in a 
human way; and provide the resources necessary not just to put 
the people on the border to protect our borders, but also to 
provide what services are important and necessary in the 
interior of the States.
    It is going to require more money. I don't expect you to 
comment or solve that problem today, except I am sure you will 
commit to look at it and do the best you can. But we also have 
an obligation up on this side of the dais to do the best we can 
in providing the resources for you to do your job.
    That was more of a speech than a question, but if you would 
like to comment in any way, I would appreciate it.
    Mr. Ziglar. Well, Senator, I am very aware of the issue you 
are talking about, and, in fact, fortunately, what you talked 
about, you and I have talked about.
    The smuggling rings, the kind of people that are doing 
that, what they are doing to these innocent folks that are 
trying to get here is just despicable. And then, like you say, 
when they get here, we don't know what to do with them. It is 
clearly a very difficult problem. It is going to require more 
resources, and it is going to require a flexibility in the 
organization that will allow us to move our resources more 
readily to where we need them at a particular time.
    I want to make sure that when we ask for resources up here, 
we are using the ones we already have most effectively. But I 
can tell you that I won't be reluctant, as you know, to come up 
and ask for resources. I have certainly done that as Sergeant 
at Arms in order to take us into the 20th century on technology 
up here. If you have a good reasoned approached to the 
situation, I find the Congress to be very willing to help 
resolve problems, and you can bet I will be up here talking 
with you about it.
    Senator Kyl. Thank you, Mr. Chairman.
    Senator Kennedy. Thank you very much.
    Senator DeWine?
    Senator DeWine. Thank you, Mr. Chairman.
    Jim, I am delighted with your comments about being 
concerned about children. You and I talked about this in the 
office the other day, and, you know, anecdotally, probably the 
worst stories we get are children placed in detention and what 
happens with them and how they are treated, how they are not 
treated.
    One of the things I would like for you, if you could--not 
today, but I would like for you to look at is how much of this 
problem can administratively be corrected and how much really 
do you need legislation to correct. I think that is for this 
Congress something that we need to look at. I don't believe 
that the previous administration really got into it deep enough 
and exhausted their remedies, and I would like to see what 
could be done administratively, and then if we have to do 
additional things, then we should obviously do those as well.
    Another problem that I have run into in trying to determine 
what is going on is trying to get statistics out of the INS. 
And they are horrible. And you just cannot make good policy 
judgments, this Congress can't, you can't as the upcoming head, 
without those statistics. And it's not just a question of 
keeping statistics for statistics purposes, but these are 
things that we really need to know. And I would be more than 
happy to share with you when we have more time specific 
examples of things that we tried to find out and we couldn't 
find out. We just have to know how it is operating to make 
those decisions.
    And so I think when you look at the reforms that you are 
going to have to make, it seems to me that one of the things 
you need to do is to start to gather the facts, and the best 
way to gather the facts is to come up with better tracking 
systems.
    Any comments on that statement?
    Mr. Ziglar. A couple of things, Senator. One, the issue 
that you just brought up about how much can we do 
administratively is a very important issue to me. At the danger 
of saying something that maybe I will have to retract, I 
believe that an awful lot of the reform over at the INS can be 
done without coming to Congress asking for legislation, because 
I think we have the authority to reorganize the place and to 
undertake initiatives within the place without having Congress 
mandate exactly what the form of management structure ought to 
be.
    I would just as soon try to do this in a rational way 
instead of having some Rube Goldberg kind of contortion on the 
organization, and that is what it looks like now. I mean, 
looking at the organizational chart, I still can't keep up with 
where everything goes. And that means that you don't have a 
very efficient place.
    So I think we can do a lot of things without having to ask 
Congress to spend its time on legislation that will achieve the 
purposes that I have seen in the legislation that has been 
advanced in various fora here about the INS.
    The other side that you are talking about, the statistics, 
I understand that, and one of the problems in gathering 
statistics is you have to have a way to compile them. You have 
got to have the place to put the data and then analyze it, and 
that is where the IT, or information technology, upgrades that 
we need to do will help us a lot by being able then to gather 
good information, put it in there, and then bring it to a 
central point so it makes some sense.
    Senator DeWine. Good. Thank you.
    Thank you, Mr. Chairman.
    Senator Kennedy. Well, I think unless there are other 
questions, Mr. Ziglar, we want to thank you. I have been asked 
by the chairman of the committee to indicate that we would keep 
the record open for a week for questions, but there is desire 
for us to conclude this and pass this prior to the time of the 
recess. It is all of our intention to do it as early as 
possible. But since the hearing was on shorter notice, he had 
at least indicated that he wanted to give a chance for people 
that hadn't gotten to, to submit questions.
    Senator Brownback. Did the chairman indicate when he would 
hold the vote, the committee vote, by chance?
    I think it is his desire that we are going to conclude it 
before the break.
    Senator Brownback. Good.
    Senator Kennedy. That is certainly what I would hope that 
we would do it as early as possible.
    Senator Brownback. Great. That would be excellent.
    Senator Kennedy. So we will process along those ways.
    If there are questions--I have just a few which I will 
submit, but we will do it in a timely way and get all the 
material together and make every effort, and I am confident 
that we will act in the very, very near future.
    Again, we thank you and congratulate you and wish you well, 
and I look forward to voting in support of your nomination.
    The committee stands in recess.
    Mr. Ziglar. Thank you, Mr. Chairman. It has been a 
pleasure.
    [Whereupon, at 3:46 p.m., the committee was adjourned.]


</pre></body></html>
